No. 19-546

 

IN THE

Supreme Court of the United States

DOUGLAS BROWNBACK, ET AL.,
Petitioners,
Vv.
JAMES KING,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

BRIEF OF PROFESSORS JAMES PFANDER,
GREGORY SISK, & ZACHARY CLOPTON AS
AMICI CURIAE IN SUPPORT OF
RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

7,971 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 11, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
